No. ________________

IN THE SUPREME COURT OF THE UNITED STATES
CLIFFORD SENTER,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Clifford Senter respectfully moves for leave to file the attached
petition for writ of certiorari without prepayment of costs and to proceed in forma
pauperis in accordance with Supreme Court Rule 39 and 18 U.S.C. ยง 3006A(d)(7).
A United States Magistrate Judge found Mr. Senter financially unable to
obtain counsel and appointed the Federal Public Defender for the Northern District
of Alabama to represent Mr. Senter under to 18 U.S.C. ยง 3006A.
In reliance upon Sup. Ct. R. 39.1 and 18 U.S.C. ยง 3006A(d)(7), Mr. Senter
has not attached the affidavit that would otherwise be required by 28 U.S.C. ยง
1915(a) and the rules of this Court.
Respectfully submitted this 20th day of August, 2021.
KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
ALLISON CASE
Assistant Federal Public Defender
ALEXANDRIA DARBY
Appellate Attorney
Counsel of Record
200 Clinton Avenue West
Suite 503
Huntsville, Alabama 35801
256-684-8700
Alex_Darby@fd.org

